<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR 2014</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2014

                              ----------                              

                                            Tuesday, March 5, 2013.

     FORCE STRUCTURE ISSUES AND THE IMPACT ON MILITARY CONSTRUCTION

                               WITNESSES

GENERAL RAYMOND T. ODIERNO, CHIEF OF STAFF OF THE ARMY
ADMIRAL JONATHAN W. GREENERT, CHIEF OF NAVAL OPERATIONS
GENERAL JAMES F. AMOS, COMMANDANT OF THE MARINE CORPS
GENERAL MARK A. WELSH III, CHIEF OF STAFF OF THE U.S. AIR FORCE

                      Chairman's Opening Statement

    Mr. Culberson. Good morning. I want to welcome everyone to 
the first hearing of the Military Construction and V.A. 
Subcommittee of the House Appropriations Committee. It is a 
great privilege to chair this extraordinary committee, with so 
many members of the House who share my passion for the, to help 
the United States military is something that we all are arm-in-
arm in and we are honored to be here with you this morning, 
gentlemen.
    And we have a lot of questions that we want to have your 
help in answering to help us better serve you, to make sure 
that the men and women of the United States military have 
everything they need to do their job and don't have to look 
over their shoulder or worry for one moment about their 
facilities, their living conditions, their health care when 
they are active duty or when they retire. This is an 
extraordinary privilege for us, and we are looking forward to 
hearing from each and every one of you this morning.
    But before I introduce our witnesses, I would like to turn 
to our ranking member, Mr. Bishop, for any opening remarks that 
he would like to make.
    Mr. Bishop.

                   Ranking Member's Opening Statement

    Mr. Bishop. Thank you very much, Mr. Chairman. I would like 
to thank all of you for your continued service to our nation. 
You certainly are truly deserving of our nation's affection and 
support.
    Mr. Chairman, we are facing some very difficult times. And, 
of course, March 1st, the automatic cuts called sequestration 
are being implemented.
    And it was included in the Budget Control Act to force all 
of us in the Congress, both Democrats and Republicans, to work 
together to resolve our fiscal problems, but the cuts that are 
set to go into effect are really unacceptable, and I find it 
hard to believe that some of our colleagues are willing to 
accept cuts that would significantly harm our national security 
and our military's ability to handle any contingency now and 
going forward.
    Some of our colleagues believe that these cuts won't 
threaten the hundreds of thousands of middle-class jobs; that 
this is just merely hyperbole to scare the public, but I just 
want my colleagues to know that these cuts are real, and that 
they will have a devastating impact.
    For example, in Georgia, sequestration will affect over 
37,000 jobs. In my district, just for the Army, 17,000 jobs 
will be affected. And the people in our district are really 
hard working folks, and they just want a chance to pursue the 
American dream. Many of them are federal employees who have 
already been forced to cut back as a result of some of the 
actions that have already been taken.
    Others are defense contractors, who support our men and 
women in uniform, and who--at the point of the spear--and rely 
on--we rely on the defense contractors to keep them well 
equipped and well trained. They can't afford the arbitrary 
irrational cuts that are being implemented by way of the 
sequester.
    Many of our colleagues have forgotten that we have already 
cut $487 billion over 10 years in the defense under the Budget 
Control Act, not to mention the $138 million that Secretaries 
Gates and Panetta implemented.
    We can't continue to address the budget issues on the backs 
of our servicemen and -women and their families. I think there 
is no question that we need to cut our deficit, but it has to 
be done in a balanced way that protects the investments in 
middle class, doesn't jeopardize our national security. It is 
important for us to have this hearing today, because I know 
that you gentlemen share our concern when it comes to defense 
of our nation.
    Mr. Chairman, you and I have worked very hard in the last 
Congress, and we have tackled some very difficult issues. And 
we look for compromises. And I look forward to hearing from 
witnesses today, and to hear your thoughts on these issues, 
particularly the terrible impact of sequestration.
    With that, Mr. Chairman, I thank you for the remarks, and I 
yield back.
    Mr. Culberson. Thank you very much, Mr. Bishop.
    I would like, if I could, to recognize the chairman of the 
Defense Appropriation Subcommittee, our former chairman, and 
truly a man who is a national treasure for all that you have 
done, Bill Young, for the United States of America, and for our 
military.
    I know we all owe you a great debt of gratitude sir, and I 
would like to recognize you sir for any statement you would 
like to make?
    Mr. Young. Mr. Chairman, thank you very much. And it is a 
distinct honor to actually serve as a member of this 
subcommittee.

                         Continuing Resolution

    I wanted to just take a couple of minutes and say that last 
week we were wondering where were we going to go with the 
problem of the continuing resolution. You know, everybody 
focused on sequestration.
    Continuing resolution, when it came to national defense is 
every bit as serious. And, frankly, we were on dead center. We 
needed some movement, and you all came, a week ago today, and 
you gave us some powerful, powerful testimony on the problem of 
the C.R. and what needed to be done. So our plan actually got a 
huge boost from what you told us.
    And we went that very same day to our leadership and to the 
membership of the Republican conference and presented your 
testimony where they were cool in the beginning, they really 
warmed up. So the plan that we have is moving, and we are going 
to pass that plan in the House this week.
    So thank you very much, not only for what you do in your 
military capacity, but you actually help us move our plan 
forward, hopefully solving some of the possible--potential 
problems of a continuing resolution. So I don't think we can 
thank you enough for what you do for our country.
    And Mr. Chairman, thank you very much for letting me make 
those comments. I think it is important that they be recognized 
as to the importance of what they do.
    Mr. Culberson. Thank you so much, Mr. Chairman.
    I share those sentiments, and I deeply appreciate your 
service to the country, the men and women you represent, they 
do an extraordinary job, and it is truly our mission in 
Congress to ensure that they don't ever have to look over their 
shoulder or worry about their paycheck, their living 
conditions, their health care, the equipment that they have we 
want to make sure is the best in the world. So I would, at this 
time, like to introduce our witnesses. The four gentlemen that 
are well known to the nation, General Raymond T. Odierno, chief 
of staff of the United States Army; Admiral Jonathan Greenert, 
chief of Naval operations; General James F. Amos, coming out of 
the Marine Corps; General Mark A. Welsh III, Chief of Staff 
United States Air Force, deeply appreciate the time that you 
have taken to be here today with your busy schedules, and of 
course would like to ask without objection that your written 
statements be entered into the record in their entirety.
    And due to the number of witnesses today, we would welcome 
your summarization of your statements in approximately 5 
minutes. We will, as we go through the year, members, I just 
want to emphasize, we will start promptly on time. And for 
those members present in the room when I gavel, the hearing to 
order I will recognize you for questions in order of seniority 
alternating between majority and minority.
    And for those of you who arrive after the hearing has 
started, I will recognize you in order of arrival.
    I deeply appreciate your being here today, each and every 
one of you.
    And we will start with you, General Odierno. Thank you very 
much sir for your service to the country and for being here 
today. We look forward to your testimony.

                  OPENING STATEMENT OF GENERAL ODIERNO

    General Odierno. Thank you sir, Chairman Culberson, Ranking 
Member Bishop, and the rest of the committee thank you for 
allowing us to be here today.
    I would just start out by saying, the combination of the 
continuing resolution, a shortfall in overseas contingency 
operation funds for Afghanistan, and the sequester in fiscal 
year 2013 has resulted in at least an $18 billion shortfall to 
the Army's operation and maintenance accounts. As well as an 
additional $6 billion worth of cuts across all of our other 
programs.
    As I have said previously these cuts will have grave and 
immediate impacts to the Army readiness that will not only last 
in 2013, but will last well beyond 2013, and mitigate itself 
into 2014--excuse me--promulgate itself into 2014 and beyond.
    Under sequestration and a full year continuing resolution, 
the Army will reduce all military construction by 7.8 percent, 
$567 million reduction in fiscal year 2013, and all unobligated 
prior year accounts. We will be forced to delay progress on our 
top construction priorities, the renovation of an existing 
cadet barracks, and the construction of a new cadet barracks at 
West Point, and the Arlington National Cemetery expansion.
    Until the Army receives an appropriations measure with new 
start authority, we cannot initiate 102 military construction 
projects that are scheduled for award in 35 states. We are 
reducing our base sustainment funds by $2 billion in fiscal 
year 2013, a 70 percent drop from what has been historically 
required to run our installations. This translates into an 
estimated 100,000 facility work orders per month that will not 
be executed, which places the Army on a slippery slope, where 
our buildings will fail faster than we can fix them.
    All restoration and modernization projects for fiscal year 
2013 will be deferred. Budget cuts will have tremendous impact 
on one of my top priorities, family programs. The furlough of 
251,000 valued civilian employees, reduction in base 
sustainment funds, and the elimination of service contracts 
will strain our ability to protect our Army family programs 
across every one of our installations.
    Sequestration will force us to reduce resources for our 
schools, our day care centers, and every one of our family 
assistance and community service programs that rely upon the 
installation's infrastructure to provide services.
    Sequestration will impose a $44.7 million cut to our family 
housing program. Consistent with the Budget Control Act of 
2011, the Army is reducing its authorized end strength by 
89,000. Sequestration will impose an additional loss of at 
least an additional 100,000 soldiers from the active Army, the 
Army National Guard, and the U.S. Army Reserve. Together this 
will represent a 14 percent reduction of the Army's end 
strength, which will equate to an almost 40 percent reduction 
in our brigade combat teams.
    This means we will have excess U.S. base installation 
infrastructure, therefore a future round of base realignment 
and closure is essential to identify excess Army 
infrastructure, and prudently line civilian staffing and 
infrastructure with reduced force structure, and reduced 
industrial base demand.
    If we do not make the tough decisions necessary to identify 
inefficiencies and eliminate unused facilities, we will divert 
scarce resources away from training, readiness, and family 
programs and the quality of our installation services will 
suffer.
    I understand the seriousness of our country's fiscal 
situation. We have and will continue to do our part, but we 
simply cannot take the readiness of our force for granted.
    In my opinion, sequester is not in the best interest of our 
soldiers, our civilians, and our national security. 
Furthermore, I do not want to see the impact of these cuts rest 
on the shoulders of our soldiers and civilians who so 
adequately and courageously defended our country over the last 
12 years. Furthermore, I would ask that you provide us with an 
appropriations bill that would provide flexibility to reprogram 
funds to at least reduce some of the O&M shortfalls and allow 
for new starts.
    Thank you, Mr. Chairman, and thank you to the committee for 
allowing me to testify here today.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Culberson. Thank you, General Odierno.
    We in a bit of a--you know, this is a little bit confusing 
and it is frustrating to me just because of the nature of the 
process, but we are, thank goodness, going to be able to pass 
an appropriations bill. It will be a C.R. with the defense 
appropriations bill that Chairman Young has put together and 
our military construction bill for 2013.
    So you are actually--we are going to get, thank God, a 
complete defense appropriations bill and a complete MILCON, and 
V.A. bill, thank goodness. We are certainly in a very difficult 
fiscal environment, so fortunately, General--Admiral, General 
Amos, and General Welsh, the, you are going to have, by the end 
of the week, out of the House, a DOD bill and a MILCON-V.A. 
bill for 2013 that actually gives you a certain amount of 
cushion and protection.
    There will be some cut out of that 2013 level, but it won't 
be as difficult a course as it would have been with a C.R. and 
automatic cut out of that 2012 level.
    So as you go through your testimony, keep that in mind, 
that we are doing our best to cushion the blow as much as 
possible.
    Admiral Greenert, we welcome your testimony. Thank you.

                 OPENING STATEMENT OF ADMIRAL GREENERT

    Admiral Greenert. Thank you, Mr. Chairman. Then you will 
recognize my points.
    Thank you for, and Ranking Member Bishop, for what you have 
done. Distinguished measures, distinguished members of the 
committee. And I want to thank you for your support on our 
military construction request, especially.
    Our naval forces are defined by two important qualities, 
Mr. Chairman. We operate forward where it matters, at the 
maritime crossroads of the world. And we are ready when it 
matters. And this remains our mandate.
    And because of it, your Navy and your Marine Corps are 
uniquely able to quickly respond to crises and assure our 
allies, build partnerships, deter aggression, and contain 
conflict.
    Our near-term concern with the implementation of 
sequestration and the current lack of an appropriation bill is 
the impact on deployed operations, both this year and next 
year.
    However, make no mistake, the $10 billion to $13 billion 
per year reduction to our budget over the next 8 years will 
fundamentally change the shape, it will change the size, and it 
will change the way we operate in our Navy.
    We will not be able to respond in the way we can today and 
the way we have in the past. That will be a fact of life. We 
should make that kind of strategic adjustment consciously and 
deliberately, however. And now that sequestration has been 
implemented, we will pursue solutions that minimize acute 
readiness degradation caused by the simultaneous impact of 
sequestration and a continuing resolution.
    Now, within the Navy Department, we have resources that can 
be reallocated to fund our operations and maintenance for this 
year.
    For example, the continuing resolution constrains our 
accounts at the level of last year's funding level. But this 
fiscal year, we are implementing a new defense strategy, and 
that emphasizes readiness over capacity.
    So as a result, we currently have about $3.7 billion more 
in our investment accounts than we requested, and we currently 
have $4.6 billion less in our operations accounts than we 
requested.
    So we are out of balance. And this unbalance is made worse 
in our operations account because of sequestration.
    Today we are reducing our presence in every theater and 
stopping training for next year's deployments. Now with either 
an appropriation bill or the authorities to reallocate funds 
where they are needed, we would first be able to restore the 
training and maintenance and keep a carrier strike group and an 
amphibious ready group in the Middle East and the Pacific 
through next fiscal year.
    As more funds are transferred and as we can recover here 
into our operations account, we would restore the rest of this 
year's planned deployments, training and maintenance.
    That wouldn't bring back all the activities that we 
requested for this year, but it is the minimum needed to 
support the department's Global Force Management Allocation 
Plan.
    Mr. Chairman, that is our demand signal; that is our 
covenant with the combatant commanders, the Global Force 
Management Allocation Plan.
    Given that funds are available, we should not delay. And in 
the last 2 months, we missed $600 million worth of ship, 
aircraft and facility maintenance, training, and we also missed 
some program management.
    In this month alone, we will miss more than $1.2 billion of 
maintenance and operations because we are deferring planned 
activity. These are lost opportunities, many of them, and these 
will increase each month as we go on a continuing resolution.
    Again, most are not recoverable. For example, we can't go 
back and redo a deployment that was already gaffed, and we 
can't go back and redo a ship maintenance when that ship's 
schedule requires it to continue on into its deployment.
    Our Navy is at its best when it operates forward. And our 
modest overseas MILCON and facility investment requests enables 
our ships, our aircraft, and our sailors and civilians to 
operate from or be based in overseas places where they can 
rest, refuel, repair and resupply. Operating forward is more 
efficient than rotationally deploying units from the 
continental United States.
    Under the continuing resolution all of our military 
construction projects are on hold. You know that.
    Because of the continuing resolution and sequestration, we 
were compelled to stop almost all of our facility renovation 
and modernization. Our ability to continue operating forward is 
constrained because of that.
    The continuing resolution and sequestration directly impact 
our sailors, our civilians and also our families. Our folks are 
stressed by uncertainty, the uncertainty about their jobs, the 
uncertainty of their schedules and their future.
    So we ask that the Congress quickly act to provide an 
appropriations bill for this fiscal year or a continuing 
resolution that at least gives us the authority for new 
projects, allows the department, us, to reallocate the funds 
that we have very quickly.
    Time is critical, Mr. Chairman.
    I want to thank you for this opportunity to testify on 
behalf of our sailors, our civilians, and our families.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Culberson. Thank you very much, Admiral, for your 
testimony and your service.
    General Amos. Look forward to hearing from you, sir. Thank 
you.

                   OPENING STATEMENT OF GENERAL AMOS

    General Amos. Chairman Culberson, Ranking Member Bishop and 
the committee, I am heartened by what I saw come across my 
computer yesterday afternoon and the likes of a draft NDA or a 
resolution to an NDA for a Department of Defense NDA, so thank 
you.
    Thanks for your faithfulness, thanks for your willingness 
to understand where we are at the Department of Defense, as it 
relates to the security of our nation.
    All my colleagues and I take that very, very seriously. We 
have testified three times to that.
    This is more than just C.R.; this is more than 
sequestration. Quite honestly, the world is looking at us, as a 
nation, both our enemies and our friends, to determine which 
way we are going to go.
    So thank you for that, and I look forward to hopefully a 
successful passing in the House and in the Senate as well.
    I would like to thank this committee for its enduring 
commitment to our Marines, our sailors and our families. As a 
historically frugal service, for decades we have grown 
accustomed to substandard barracks and inadequate facilities.
    However, in 2006, that began to change, as a result of the 
faithful support of Congress and this committee in particular.
    Long overdue, it was time to raise the standard of living 
for our Marines. Thanks to your commitment, both single Marines 
and Marine families are enjoying the finest housing and 
facilities we have ever known.
    During more than a decade of conflict, we have worked hard 
to ensure that the critical needs of our families and our 
single Marines are met during rigorous deployments as well as 
in garrison.
    Providing the high-quality services, facilities and 
programs for our all-volunteer force, they have thrived, while 
facing the challenges of a rigorous operational tempo.
    With the help of this committee, we have successfully 
constructed new barracks and family housing all across our 
Marine Corps.
    We built wounded warrior housing and care complexes at Camp 
Lejeune and at Camp Pendleton, and improved the many facilities 
around our bases and our stations.
    This has had an immediate affect on improving the quality 
of life of our Marines and their families around the world. But 
we are not finished.
    For fiscal year 2013 we proposed a military construction 
effort with the following priorities: First, infrastructure 
development, replacement of inadequate facilities at our bases 
and our stations, construction of much-needed professional 
training and military education facilities, and, finally, 
aviation support facilities in support of our new aircraft.
    Our military construction request has been adjusted to 
accurately reflect our planned downsizing to an end-strength of 
182,000 by the end of fiscal year 2016, and it represents a 45 
percent reduction from last year's fiscal year 2012 submission. 
As military construction funds likely become even more 
constrained and competitive, we will have to rely on the sound 
stewardship of existing facilities and infrastructure to 
support our needs.
    However, with the continuing resolution and sequestration, 
all 37 of our planned fiscal year 2013 military construction 
projects are halted and unable to proceed.
    The value of these projects equals $716 million. These 
well-planned, critical projects fitting into those four 
categories that I mentioned before include key elements in our 
support for the president's strategy in the Pacific, to include 
relocation of an MV-22 squadron from Miramar to Hawaii, and 
support facilities for fueling the F-35 JSF in Japan.
    Additionally, we have been forced to halt construction 
plans on hangars for the F-35 in Beaufort, South Carolina, as 
well as road improvements aboard our major installations 
designed to correct safety deficiencies. These projects are 
ready to begin today. Without fiscal year 2013 MILCON 
appropriations or the authorities for new starts, we are forced 
to defer to future years' budgets, causing a ripple effect 
which will no doubt significantly impact our modernization and 
our sustainment efforts.
    At the heart of the matter, sequestration by its magnitude, 
its timing and its methodology will have a devastating impact 
on our nation's readiness, both short and long term.
    Because of our unique role as America's crisis response 
force, Marines place a premium on maintaining a high state of 
readiness. I have done everything within my current authorities 
to preserve the tenets of a ready Marine Corps. I will continue 
to do so until I run out of money.
    Under continuing resolution, I have kept deploying units 
ready, but only by stripping away the foundations of a long-
term readiness for the total force.
    While these near-term mitigations are possible, the 
enduring effect of these decisions puts the future health and 
readiness of the force at risk.
    By the early part of next year, more than 50 percent of my 
tactical units will be below minimum acceptable levels of 
readiness for deployment in combat. This pattern inevitably 
leads to a hollow force. Its impact is already being felt under 
continuing resolution.
    Additionally, as a result of sequestration, planned 
civilian furloughs will recklessly impact the lives of more 
than 19,000 civilian Marines, who face 20 percent pay cuts. 
They are an integral part of our Corps. They deserve better.
    During our last three hearings, I have spoken about the 
combined effects of the existing continuing resolution and 
sequestration. These indiscriminate measures create 
unacceptable levels of risk to our national security, risk to 
our forces, risk to the American people, and risk to the United 
States of America.
    I urge the committee to consider the full range of these 
risks created by the Budget Control Act and the year-long 
continuing resolution. I ask for your assistance in mitigating 
them to the extent possible. And I thank you for your continued 
support of your Marine Corps.
    I look forward to your questions.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Culberson. General Amos, thank you very much, sir.
    General Welsh.

                   OPENING STATEMENT OF GENERAL WELSH

    General Welsh. Thank you, Mr. Chairman, Ranking Member 
Bishop. It is a special privilege to be here today. Thank you 
for the honor of appearing before you. It is a special thrill 
for me to sit beside the gentleman to my left. I happen to be a 
fan of all of them.
    Thank you for the efforts of this committee that you have 
already outlined this morning to move us forward from where we 
are today.
    And thank you, Chairman Young, for the larger committee's 
efforts to do the same thing. All of us appreciate it deeply.
    The Air Force story on sequestration is very similar to 
what you have already heard this morning. I tell you that it 
will significantly undermine your Air Force's readiness and 
responsiveness today. It will significantly impact our civilian 
workforce in the coming months. And eventually, it will clearly 
affect our future capability.
    Throughout this period of budgetary uncertainty, the Air 
Force has taken care to minimize the disruption to Airmen and 
family support programs, while also protecting the distinctive 
air power capabilities that America expects of us. The 
arbitrary cuts of sequestration, along with the possibility of 
a year-long continuing resolution, which I hope is less of a 
possibility today, sacrifices many of the strategic advantages 
of air power and jeopardizes our ability to fulfill our role in 
executing the Nation's current defense strategic guidance.
    For the Air Force, sequestration represents a $12.4 billion 
topline budget reduction in fiscal year 2013, affecting, of 
course, every account and program. The fiscal year 2013 
National Defense Authorization Act (NDAA) authorizes $460 
million for Air Force military construction. This figure is 
about $900 million less than in fiscal year 2012 and reflects 
an intentional pause in military construction to ensure 
resource availability in other areas necessary to fulfill our 
role and support the strategic guidance.
    So the MILCON projects we requested this year and that were 
authorized in the fiscal year 2013 NDAA represent only the most 
critical infrastructure improvements that we foresee. Besides 
enabling the delivery of air, space, and cyber capabilities for 
America, our installations contribute to the quality of life of 
our Airmen and their families, enhance force readiness through 
training and maintenance facilities, and facilitate 
modernization through bed-down and infrastructure improvements 
designed for new and emerging weapons systems.
    Because our installations and infrastructure represent the 
foundation of these three areas, the consequences of 
sequestration and a year-long continuing resolution (C.R.) 
generate significant second- and third-order effects. For 
example, our Airmen and their families will experience delays 
to improvements for substandard dormitories and housing. Flight 
simulators and maintenance facility construction delays will 
magnify readiness degradations that are already unacceptable, 
and potential cancellation of bed-down facilities for Air 
Force's newest platforms can slow the fielding of those newer, 
more capable modernization efforts. The Air Force is long 
overdue for reconstitution following over two decades of war. 
Our inventory still includes aircraft from the 1950s and our 
force is as small as it has ever been since we became an 
independent service. And now we find ourselves stuck in the 
unenviable trade-space between modernization and readiness, 
with infrastructure improvement delays and deferments 
amplifying the impacts to each, and we need your help to get 
out.
    I urge you to do all that is necessary to pass an 
appropriations measure and to grant whatever flexibility is 
possible to mitigate the significant impact of the ongoing 
continuing resolution. This is clearly an unusual budget 
environment and unusual measures are worth considering this 
year.
    Thank you again for allowing us to be here, and I look 
forward to your questions.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Culberson. General Welsh, thank you.
    And again, thanks to each and every one of you for your 
service to the country. And as I start off this round of 
questioning, I think, General Amos, you hit it at, I think you 
made the critical point that Marine Corps readiness is at a 
tipping point. I know each and every one of you feel the same 
way.
    The concern that you have expressed today in your testimony 
about the effect of sequestration or these cuts on the 
readiness of the Air Force, the Marine Corps, the Navy and our 
Army are deeply concerning to each one of us. And we want to 
make sure as a committee of the Congress that the armed forces 
of the United States have everything you need and we are 
certainly going to do everything in our power to minimize the 
effect of these cuts in this tough budget environment on the 
services.
    And you see that in the determination of the Congress. The 
House is about to pass a continuing resolution with a complete 
military construction-V.A. bill and a complete Department of 
Defense appropriations bill. And the bill that we are about to 
pass is, the overall bill will total about $1.0343 trillion and 
meets the separate security and non-security Budget Control Act 
caps.
    But it does, of course, include a provision that 
sequestration will take effect, but that will be, the 
sequestration cuts will be on the funding levels for fiscal 
year 2013, which will, I think, minimize the impact on the 
services.
    The bill does freeze, the bill we will pass tomorrow or 
this week in the House, will freeze federal employee pay for 
fiscal year 2013. And the bill also ensures that the Department 
of Defense is funded at the correct levels and in the 
appropriate accounts for fiscal year 2013. And while the 
Department of Defense will obviously have to, still have to 
absorb the sequestration cuts, again having those funding, 
having the funding in the correct accounts for 2013 certainly 
helps.
    The Department of Defense will also have new start 
authority for military construction and we know how important 
that is, as you have each indicated in your testimony. And the 
Department of Veterans Affairs, of course, is exempted from 
sequestration, but we will have an appropriations bill for 
2013, so that allows the V.A. to continue their work to reduce 
the time that they have, the backlog of claims, and the 
difficulty they have had in handling the tremendous number of 
claims.
    But I know the concerns of the committee and the Congress 
is that the readiness of all our forces could be at a tipping 
point. We are very concerned about that. I would like to ask, 
if I could, each one of you to briefly for the record reiterate 
how critical it is that Congress pass this C.R. with the 
Department of Defense, MILCON and V.A. bills funded at the 
appropriate levels for 2013. How important is that for each one 
of the services?
    General Odierno.

     BUDGET IMPACT UNDER A CONTINUING RESOLUTION WITH SEQUESTRATION

    General Odierno. Thank you, Chairman. First, for us, I 
believe we are at a significant point where the impacts to our 
readiness will impact everything that we do for the next 2 to 
2.5, 3 years if we don't make these decisions. We have already 
begun to cancel our combat training center rotations, which is 
the culminating event of our readiness for our brigade combat 
teams. We are going to have to reduce all training by, to the 
units that are not in Afghanistan, about 80 percent of the 
Army. We are going to have to almost eliminate a significant 
amount of training.
    We now believe up to between 37,000 and 50,000 flying hours 
will have to be reduced, which means about 750 pilots will now 
go untrained. That will take us 2 to 3 years to catch up on 
that readiness level. So it is a combination of all of these 
things, as well as the impact on our installations, as well as 
the impact on our family programs that hits at the heart of 
Army readiness.
    And I remind everyone that as we sit here today, I still 
have nearly 60,000 soldiers deployed in Afghanistan and another 
21,000 deployed in other places in the Middle East.

                         C.R. WITH NO DOD BILL

    Mr. Culberson. These changes you are describing, that is 
assuming we had a C.R. with no DOD bill?
    General Odierno. So, what I described to you is a 
combination of the continuing resolution if we do not have a 
bill, of sequestration, and a shortfall that we currently have 
in our OCO funds.
    Mr. Culberson. Sequestration at the 2012 level, because we 
are going to get, of course, a bill at 2013 levels and the cuts 
that we would see with the sequestration would be at the, on 
the 2013 level. That will minimize or mitigate to a certain 
extent----
    General Odierno. That will help mitigate some of the 
problems.
    Mr. Culberson. Yes, sir, mitigate some of the problems.
    General Odierno. That is right.
    Mr. Culberson. So it is, in your opinion, then, critical 
that we do a C.R.
    General Odierno. Absolutely critical that we do it. It 
mitigates----
    Mr. Culberson. That is what I am looking for.
    General Odierno. It mitigates at least one-third of our 
problem.
    Mr. Culberson. There you go.
    General Odierno. It also, depending on what it does for 
OCO, could help us on the OCO shortfall we have as well.

               EFFECTS OF PASSAGE OF APPROPRIATIONS BILL

    Mr. Culberson. Thank you.
    That is what really the thrust of my question is, the 
effect. How does the passage of the 2013 appropriations bill 
with DOD and MILCON mitigate the effect of what would have 
otherwise been just a straight C.R. with sequestration. You say 
it mitigates about a third.
    General Odierno. Right.
    Mr. Culberson. That is the impact. Yes, sir. Thank you.
    Admiral Greenert.
    Admiral Greenert. Well, for us, it is almost night and day, 
Chairman, because right now, I am $8.6 billion, when you take 
the two, sequestration and continuing resolution, out of 
balance in my operations account. You eliminate $4.6 billion of 
that imbalance right off the bat. And what that means in simple 
terms, today we are able to put one carrier strike group and 
one amphibious ready group forward, and pretty much, not much 
in the other theaters of the world.
    With a bill, what we can do is we can restore, if you will, 
the global force management allocation plan, the vast majority. 
We can get back to the covenant that we have with the combatant 
commanders to get almost all of that back. So we get the get-
back, if you will. We get two carrier overhauls. We get a 
carrier new construction. We get--new construction. We get all 
the military construction.
    We don't have any of this right now. So, all of that comes 
back. And of course, all the installation readiness, excuse me, 
renovation and modernization, which we have none of now because 
we have had to put it off to pay for this imbalance.
    Mr. Culberson. So it is night and day, night and day.
    Admiral Greenert [continuing]. Yes, sir.

              LAUNCHING TWO ``VIRGINIA'' CLASS SUBMARINES

    Mr. Culberson. I also want to ask, if I could, Admiral 
Greenert, very quickly on something near and dear to my heart, 
and I know that as members of Congress, we appreciate seeing 
the Dolphins there, sir. We get this bill done, you know, that 
funds you at 2013 levels as needed, with the support of the 
chairman and I know the subcommittee and the full Armed 
Services Committee.
    Will you be able to build and launch two Virginia Class 
submarines a year, that are so vital to our strategic security 
with the Chinese launching 10 top-of-the-line, state-of-the-art 
submarines a year?
    Admiral Greenert. Well, Chairman, I can't today tell you, 
``Yes, I can.'' But I tell you, without your help, I can't. 
What this bill provides for us is the advance procurement, the 
multi-year procurement authority that we would have. Now, what 
we will need--what we need is the ability to use incremental 
funding to get that second submarine. And then it is over to us 
to look into our 2014 bill, balancing with sequestration and 
the other requirements, to come up with the remainder of that 
money.
    And as we brought to the committee when we brought you our 
2013 bill, that is something we very much want to do and that 
would be a priority for me. I would do the very best I could.
    Mr. Culberson. Thank you, sir.
    And I know the committee will support you in that, and I 
certainly want to encourage Chairman Young and our 
subcommittee. I will do everything I can to help make sure that 
the Navy gets everything you need to make sure we are 
continuing to build and launch at least two Virginia Class subs 
here and continue to design the Ohio replacement.
    Admiral Greenert. Thank you, Chairman.
    Mr. Culberson. And I want to also compliment the Navy and 
the Marine Corps, and I know the Army and the Air Force are not 
far behind, but it is my understanding that, you know, over the 
years all of us as members of Congress, we learned that it is 
not, in the past, it has not been possible for example, 
PriceWaterhouse or an outside auditor to audit the Defense 
Department because over the years, the, just the way your 
accounts have developed over time, that there is sort of a 
little, I guess, tangled up.
    But I understand that Navy and the Marine Corps are the 
first two branches of the services to adopt generally accepted 
accounting procedures so that Navy and Marine Corps are now in 
a position that an outside independent auditor, 
PriceWaterhouse, could actually come in and audit the Navy and 
the Marine Corps in the same way they would, you know, 
ExxonMobil or a private entity. And that is a great tribute to 
you and certainly a great help to the Congress as we do 
everything we can to make sure that our constituents' hard-
earned tax dollars are spent right where they need to be.
    And I compliment you for that, sir. And thank you, and I 
know the Air Force and the Army is not far behind.

             PASSING OF A COMPLETE DOD APPROPRIATIONS BILL

    General Amos, could you talk to us about the difference, 
the importance of the passing of a complete DOD appropriations 
bill and a MILCON bill along with that C.R.? How important is 
that to the Marine Corps?
    General Amos. Sir, I would be happy to.
    But on the audit business, a week ago while we were in 
testimony in front of the Appropriations Committee, we were 
getting our final grade from 2 years' worth of auditing. I 
think DOD started with us because we are the smaller service, 
so it is a little bit easier.
    But 2 years of going through that to learn the lessons that 
can be passed on to the other services. We finished that last 
week. And, to the best of my knowledge, we came out the other 
end of it okay.
    Mr. Culberson. Congratulations. Thank you.
    General Amos. Thank you.
    Chairman, here are some facts. Some of these I have already 
talked a little bit about in my opening statement, but without 
funding it for this year, just this year in C.R., without 
restoring operations and maintenance, and that is really where, 
operations and maintenance, military construction, and the 
ability to get some multi-year contracts underway are really 
the impacts that you are going to, you will solve with the 
House and the Senate, if they pass this new appropriation or 
the new bill.
    Greater than 55 percent of our non-deployed ground units 
and 50 percent of our non-deployed aviation squadrons will be 
C-3 or less by mid-year of next year. But this is not done. 
This is a function of training dollars, flight hours, 39,000 
flight hours are going to be taken out of the Marine Corps. 
That may not sound a lot for my sister services that have a 
larger fleet, but for us, that is significant. That means, 
effectively, our pilots are going to be flying about 10 hours a 
month.
    When you get historically, we have become pretty adept at 
figuring out how many hours a month a pilot has to fly to 
maintain a sense of currency that plays to safety records. It 
is typically right around 15 to 17 hours a month. We are going 
to be done to about 10 hours a month.

                   CLOSING AVIATION DEPOT MAINTENANCE

    We are going to close aviation depot maintenance in the 
third and fourth quarter of this year, if this thing isn't 
done. If C.R., because they get funded by operations and 
maintenance. That is how we pay for the personnel. So those 
will be closed. And, for us, what that means is, there will be 
no more airplanes going in the front door of the depots. There 
will still be some work going on inside our aviation depots, 
but nothing more will come in.
    Half of my F-18 fleet, my 254 F-18s, half of them will 
either be stuck in depot or stuck outside the garage door 
waiting to get into depot. And my sense is, although it is hard 
for me to tell, but I have been flying for 42 years and 
managing this, so this is, my instincts are, we will never 
catch up. In other words, the airplanes are old enough now 
where it takes so much to extend their service-life and get 
them out the back door, our F-18s, that we may very well never 
catch up with the amount of depot maintenances required to get 
the fleet back up to flying status.
    And by the way, when we do that, that means all our 
forward-deployed squadrons will have the standard compliment. 
If they are on a carrier, they will have 10 airplanes per 
squadron. If they are ashore in-country, like our 3-4 deployed 
squadrons, and the one we have in the Persian Gulf, they will 
have 12. All the rest of the squadrons back home will average 
between four and six airplanes. That is it in a squadron. That 
is all we will have because there won't be anything else 
available.

                 REDUCING THEATER SECURITY COOPERATION

    We are going to reduce our theater security cooperation. In 
other words, the stuff we do in the Pacific, by 30 percent, we 
are going to cancel what we do in SOUTHCOM, down Central 
America and southern command this year. We are going to cancel 
it completely. And we will cancel most of what we do in 
NORTHCOM.

                           FUNDING FACILITIES

    Facilities' sustainment, we fund, we typically budget in 
the Marine Corps because those great facilities you bought us, 
we fund for 90 percent of the requirement. In other words, if 
it takes a dollar to maintain a facility, we fund, we budget 90 
cents. We are going down to 71 cents with C.R. And if 
sequestration and C.R. combine, we are going down to 67 cents 
on the dollar, which means we are going to have a harder time 
maintaining those great facilities.
    The reduced depot maintenance for Albany and Barstow for us 
will go down to 27 percent of the requirement. In other words, 
if I have a 100 vehicles, I have got to get through Albany, 
under C.R., I am only going to be able to get through 27 of 
them under C.R. And that is operations and maintenance funds.

                        MOVING THE MONEY AROUND

    So I already said that I have moved money around. Here is 
the money I have moved around this year. We are about $1 
billion short of operations and maintenance money, this year 
alone. I moved $450 million underneath, you know, various 
pookas that I have in the Marine Corps--$450 million this year. 
I have put $280 million back out to the operating forces so 
that those forces, getting ready to deploy, will be ready to go 
to combat, which is what I promised you I would do.
    I put $112 million in Albany and Barstow into the 
operational, my operations and maintenance funds, put them in 
there so that we could maintain the contractor and temporary 
and term workforce that we have. We will keep those workers on. 
There are 845 of them between the two facilities until one May. 
And then after one May, I am going to have to let the 
contractors and term employees go, and then the rest of my 
employees fall under the sequestration.
    Mr. Bishop. Sir, are you saying that, excuse me, are you 
saying that is with or without the C.R.?
    General Amos. No, this is without the C.R.
    Mr. Bishop. Without the C.R.
    General Amos. Right now, I have, the money that I moved in 
there will sustain, I did that to keep the workforce whole so 
we could get the vehicles through. I have got something like 
45,000 principal endliners we brought in from Afghanistan. A 
lot of it is sitting on the shelf out there ready to start 
through the depot.
    So we have done that. And lastly, Mr. Chairman, they, a 
budget this year will allow me to get a B-22 on a my last 
multi-year contract, the very last one for that wonderful 
airplane. And, by doing that, it will save $1 billion. In other 
words, if I have to buy these things one at a time, instead of 
a multi-year, it will cost, at the end of the day, several 
years from now, it will cost the federal government $1 billion.
    And then, lastly, I have already talked about the $761 
million in military construction. And I need to get going. I 
need to finish these things and the 37 projects.
    Mr. Culberson. General Welsh, I will recognize my good 
friend from Georgia, Mr. Bishop.
    Mr. Bishop. General Welsh, what is the difference between 
passing a complete DOD bill and MILCON versus the C.R. to the 
Air Force?
    General Welsh. Yes sir, well it is huge, as you know. 
Flexibility and reprogramming capability to use their own 
unobligated funds to mitigate the impacts of sequester on those 
projects that we either have under way or will begin--the 
ability to use those unobligated funds against emergencies that 
actually occur, as opposed to throwing them at a problem by 
requesting reprogramming authority without a bill.
    In a big way, it allows us to look at our civilian 
workforce and figure out a way around this idea of furloughing 
in the Air Force, 180,000 great civilian Airmen. We want no 
part of that. And this would give us the ability to look at it. 
Of course, the C.R. kills us in the military construction 
(MILCON) project side. The new starts, we have 19, which are 
significant to us, as I mentioned, because we cut it down to 
what we thought was the bare minimum.
    And the final thing is in many of our acquisition programs, 
the multi-year authorities, the quantity increases, the ability 
to mitigate the impact of sequestration on those programs by 
reprogramming across account lines. Just having the ability to 
request that authority. It is significant for us. It is a huge 
change.
    Mr. Culberson. Thank you.
    I recognize, again, my good friend from Georgia.
    Mr. Bishop. Thank you very much.
    Let me, again, thank you, gentlemen, for what you do. And 
it is good news to hear that the C.R. will help mitigate the 
challenges that all of you face, and that is a good thing.

               ARMY PROGRAMMATIC ENVIRONMENTAL ASSESSMENT

    Let me look a little bit more provincial. General Odierno, 
I want to talk a little bit about the Army Programmatic 
Environmental Assessment, which goes with the challenge that 
you face. The 2005 BRAC moved the Army center down to Fort 
Benning, and the committee was very supportive of the Army in 
that endeavor. We spent almost $3.5 billion in infrastructure 
improvements and the expansion of training areas.
    On top of those improvements, the state and local 
governments made significant investments, such as $57 million 
for an interchange into Fort Benning on Interstate I-85, the 
passage of an education special purpose local option sales tax 
to raise $223 million to provide additional schools for 
children of soldiers and civilian personnel and defense 
contractors.
    I noticed that the decisions that you have on force 
restructure are very difficult. But I worry that all of these 
investments that have been made on behalf of the Army at Fort 
Benning would all be for naught if our third brigade, 3rd 
Infantry Division were to leave, which would remove 17,815 
soldiers and dependents with them.
    How are you taking into account these investments in your 
decision-making process in the PEA, and how will sequestration 
affect this process? Because, obviously, building new 
facilities might become very difficult in the future.

                       FORCE STRUCTURE REDUCTION

    General Odierno. Well first, Congressman, the impact you 
are talking about is just from the original Defense cuts based 
on the Budget Control Act of the $487 billion, where the Army 
is reducing the active component by about 80,000, which 
translates into about 60,000 worth of force structure.
    In 2012 and 2013 we took about $12,000 out of Europe. We 
have done that already. We will finish that up this year and 
the beginning of next year. And then we will move to reducing 
our structure in the United States in order to meet the 
requirements that we have.

                 PROGRAMMATIC ENVIRONMENTAL ASSESSMENT

    As we have put out now, the Programmatic Environmental 
Assessment, we are now getting feedback from the installation. 
But the criteria we are going to use will be a couple of 
things. It will talk about the facilities. It will talk about 
training space. It will talk about housing. It will talk about 
all the things that we look at. And we will categorize all of 
those things and do an evaluation of every installation. Then 
after that, we will make decisions on where we decide to take 
further reductions that we are going to be forced to take based 
on the Budget Control Act.
    With sequestration, you can basically double that number. 
And in fact, it will now double, probably, it will be about the 
same amount of--in structure out of the active component, 
probably another $60,000 or so out of the active component, 
50,000 to 60,000. And now we will have to start reducing force 
structure in the National Guard and the U.S. Army Reserve, as 
well, which we had not taken out of, based on the first 
reduction from the Budget Control Act.
    So it will be a significant reduction in over the next 7, 
8, 9 years, in Army capacity, in all of our installations as we 
move forward.
    Mr. Bishop. Construction-wise, you put a lot of investment 
in the infrastructure. Staying with the PEA, in the PEA you 
describe two alternatives to the 2020 forced restructure. Under 
alternative two, you would actually add an additional maneuver 
battalion to each of the brigade combat teams, and if 
sequestration were to go into effect, would you still be able 
to choose alternative two?

                     FORCE STRUCTURE REORGANIZATION

    General Odierno. We would if we decide to do that. And 
because under that course of action, what we are able to do is 
we add battalions to the brigade, but we start to eliminate the 
number of brigades. So what we are able to do is get rid of 
some overhead, but sustain more combat capability by putting in 
an additional maneuver battalion under the brigades.
    And there are some other things that we have identified 
over the last 10 years, such as engineers and some other 
shortfalls that we have in our brigades. So our brigades would 
get larger, but there would be less of them, and it would be 
more, and it, what the course of action looks at, is 
potentially a more efficient way of sustaining some of our 
combat capabilities.
    Mr. Bishop. So that would result in inactivation of some 
other battalions----
    General Odierno. Yes, really, brigade headquarters, because 
the--and some maneuver battalions. But, again, it would add 
maneuver battalions to the brigades, as well.
    Mr. Bishop. So if that takes place, what are you going to 
do with the facilities, the infrastructure that we have----
    General Odierno. Well, again, the assessment we will do 
will maximize the use of the facilities that are available 
across the Army. Because of this committee, the increase in the 
capacity and capability of our facilities on many of our 
installations is very good. So what we would do is we would 
maximize our best facilities as we go forward. That would be 
one of the criteria that we assess as we go forward.
    Mr. Bishop. Thank you.
    Mr. Culberson. Thank you very much, Mr. Bishop.
    Now my pleasure to introduce--to recognize our chairman, 
Bill Young, for any questions you may have, Mr. Chairman.

                     MILITARY CONSTRUCTION PROJECTS

    Mr. Young. Well, Mr. Chairman, thank you very much. And I 
do have one quick question. Are there any military construction 
projects at some phase of construction or preparation for the 
construction or cleaning up after the construction, anything 
that is ongoing that would have to be stopped or changed if we 
don't get the C.R. issue settled and get the appropriations 
bill?
    General Amos. Mr. Chairman, the, we do, we have about $1.2 
billion right now of unobligated funds kind of carrying over 
from last year, and these are contracts that, some of which 
have started, some of which are waiting to start, but of that 
$650 million, is in jeopardy. As a result, these are projects 
that we have already contracted out. These are projects that 
have follow-on monies that are required to finish the contract 
and whatever. So the answer is yes. I can get you the precise 
number of buildings, projects themselves, but for us, it is 
$650 million.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    General Welsh. Chairman, the increment two of the United 
States Strategic Command headquarters renovation project, that 
is not a new start this year, but if under the C.R., we would 
run out of money in July. And under the Federal Acquisition 
Regulation (FAR), the project would have to be terminated. 
Because we don't have a military construction veterans affairs 
appropriations bill yet, the $120 million in this year's 
increment is not available to us. We have a major concern about 
that.
    Admiral Greenert. Without a bill, we can't start projects, 
but we have no projects in progress that would have to stop 
because of this.

                 BUDGET IMPACTS TO EUROPE BASE CLOSURE

    General Odierno. Chairman, a little bit different take. We 
have a $93 million shortfall which prevents us from closing our 
European bases that we have already identified in closing. So 
if we don't get that, we would have to delay that. What that 
means is, it is about $112 million in savings we avoid and so 
we have in Weisbaden and that we would lose.
    There is about $66 million in base sustainment funds that 
we would lose. And then it could delay the inactivation of 
5,000 soldiers if we are not able to relocate. So for us, that 
has a pretty significant impact as we move forward with 
reducing the size of our force in Europe. And so that is, that 
would be fixed, if we are able to get the appropriations bill.
    Mr. Young. Thank you all, and that is exactly what we have, 
what our plan is, to make that happen, so stick with us. Watch 
us this week, because I think we are going to have some 
additional progress.
    Mr. Chairman, thank you very much.
    Mr. Culberson. Thank you, Chairman Young.
    We recognize our good friend Mr. Farr, from California.
    Mr. Farr. Thank you very much, Mr. Chairman. I would like 
to recognize my fellow Carmel High School graduate, General 
Amos. From a small high school in California to up here on 
Capitol Hill today.
    First of all, I want to thank you all for your great 
service to our country. I want to apologize for our 
institution. I have been here 20 years, and I have never seen 
it lead the nation into such epic confusion over the fiscal 
future of this country. And obviously, this dialogue for the 
last hour has shown that confusion.
    We all represent constituents in our districts. I represent 
a district that has some great institutions, institutions which 
General Abizaid when he was the CENTCOM commander said that, 
without the Defense Language Institute and the Naval 
Postgraduate School, we could never learn to cross the cultural 
divide and America could never win the peace. Furthermore, he 
said these schools were national treasures.

           SEQUESTRATION IMPACT UNDER A CONTINUING RESOLUTION

    So my questions really are on the impact of not only 
sequestration, but also flexibility and reprogramming 
authority. And let me ask a question, Mr. Young, because I 
haven't really gotten the answer yet. Every one of the speakers 
today asked that we give them flexibility in their cuts, and I 
know we are giving them money, but are we also giving them the 
flexibility that they have requested?
    Mr. Young. If you would yield, I would say yes. With a 
C.R., there is no flexibility, as the witnesses have testified 
here. What we will present does provide certain flexibility in 
the area of reprogramming, new starts, yes. The answer is there 
is some flexibility, maybe not as much as they would like, but 
there is flexibility in our plan that we are moving this week.
    Mr. Farr. Thank you. I think that it is unfortunate, Mr. 
Chairman, that this is the only hearing we are going to have. I 
have never been full of more questions or more uncertainty, and 
the inability of our institution to have the hearings to really 
get to the bottom of what the impact is going to be. And, you 
know, we have the previous C.R. up until the end of the month. 
In the meantime, the hatchet dropped on sequestration, which 
means bigger cuts than were intended for the original C.R. and 
now we are going to have a second C.R. for the rest of the 
year. There are going to be impacts that we haven't worked 
through. It seems to me, we ought to have a lot more hearings 
to really understand the full impact and whether the 
flexibilities we are giving you are enough.

                       DEFENSE LANGUAGE INSTITUTE

    Let me just ask some specific questions. Now, I am just 
wondering how the sequester in itself will affect the services 
in being able to send personnel to the Defense Language 
Institute and the Naval Postgraduate School. The sequester is 
going to affect training and operations and maintenance, but 
education is extremely important in the new operating 
environment. Do you have any idea what the impact will be at 
DLI and NPS?
    General Amos. Congressman, right now, we have a little over 
183 students at the Naval Postgraduate School in Monterey. It 
is yet to be determined what, we are working through that now. 
It is not just Monterey. It is our resident schools we have at 
Quantico and around the Marine Corps. Those are funded by 
operations and maintenance funds. I mean, all our PME, 
professional military education, to include the postgraduate 
school, that is O&M.
    So we are working through it right now. It is a 10 percent 
cut under sequestration, roughly 9 percent, as we go into this 
thing for O&M in these areas, of PME and all that. So there is 
going to be an impact. I can't tell you how much, 183 right 
now, I think we are planning on. We are hopeful we get to 
maintain that.
    Our numbers at DLI are going down some from what we 
currently have, and the reason for that is the downsizing of 
the force. You know, we use FAOs and Foreign Area officers and 
ancillary officers and language experts, cultural experts. So 
by virtue of the downsizing of the Marine Corps, our DLI 
requirement will go down.
    Mr. Farr. Even with the new increase you are getting, the 
O&M offset in the new C.R. that we will be passing this week, 
with a $10 billion increase?
    General Amos. Sir, that----
    Mr. Farr. Will that mitigate some of these----
    General Amos. Oh, it will. It will this year. I mean, that 
is this year, and if this bill is passed, we get an 
authorization, an NDAA bill authorization, we are going to be 
fine this year. You won't see a blip there at all. I am 
thinking about in the future, we get into 2014, 2015 and 2016, 
the 10 years of sequestration.

              FURLOUGHS AND LAYOFFS OF CIVILIAN PERSONNEL

    Mr. Farr. Admiral Greenert, you operate the Naval 
Postgraduate School. Is this going to have an effect on 
furloughs and layoffs of civilian personnel?
    Admiral Greenert. Well, of course, if we get the bill, the 
furloughs go away, the school is restored faculty-wise, and 
returns to, if you will, normal operations. That is an 
important institution to me. When I now look and turn to 
sequestration, it is a matter of balancing the accounts, 
dealing with sequestration.

                       NAVAL POSTGRADUATE SCHOOL

    And Naval Postgraduate School is a priority. I don't see a 
change in our student population. That is my seed corn. That is 
where I build my Jedi knights, you know? There are a lot of 
important issues, acoustics, cyber, financial management, it 
goes on. You know that, sir.
    Mr. Farr. I haven't heard the term ``Jedi knights.'' I am 
going to use that more often. Nice to have that training 
program in our backyard.
    General Odierno, since the Army is the executive agent for 
the Defense Language Institute I am interested in your 
perspective. And I really applaud your efforts to seek the 
efficiencies that are needed, but you recently stated in the 
strategic intent that to be effective once deployed, the 
soldiers must be familiar with local cultures, personalities, 
and conditions they are operating, where they are operating. We 
can't afford to gain this knowledge under fire. Through the 
regional alignment of forces, we will meet both these 
imperatives, ensuring that our Army remains globally responsive 
and regionally engaged.
    Can you achieve that strategic guidance with budget cuts 
and modernization: And I am hopeful that you realize how 
important language is and understanding of cultures play in 
that.

                     LANGUAGE AND CULTURAL TRAINING

    General Odierno. Congressman, absolutely. As part of our 
strategy going forward, it is the continuing to develop 
language and culture among our soldiers that will support us to 
do this. And I would even talk about the fact that our cyber 
program, which we are investing in with more people, also will 
require the ability to speak numerous languages.
    And so it becomes a critical component as we move forward. 
So DLI remains for us a very critical program.
    And I would just add, you know, we send many soldiers to 
Naval strategist school, as well.
    And so for us, both of those institutions are important, 
and become more important based on how I see us reaching out 
to, more into the Pacific, remaining in the Middle East. And 
even now into Africa, as we are conducting and looking at how 
we are going to conduct operations there.
    So for us it will continue to be a key piece as we continue 
to develop not only our intel core, but also our operational 
capabilities to operate in these areas.
    Mr. Farr. Well, I appreciate that, I think we are on the 
right track; if we are going to have a leaner military, we have 
certainly got to have a smarter military. And I always say to 
get smarter, you have got to go to Monterey.
    I also want to thank you for the leadership you provided 
our former secretary. He is now back in Monterey as a 
constituent of mine. And Leon Panetta is really looking forward 
to being home, but also I think he is going to remain in close 
contact with those institutions as well.
    I think we need to know what the MILCON project cuts are 
going to be. If we can get a list of those from the services. 
So far, you have all mentioned the number and 102 construction 
projects in 32 states from the Army, we have some buildings at 
DLI and some at the Naval Post-Graduate School and I would like 
to know if they were affected. The local economy really depends 
on those construction projects as well.
    Mr. Culberson. If I may, in our bill, Mr. Farr, we are 
fully funding the requests to the branches of military for 
2013----
    Mr. Farr. The----
    Mr. Culberson. At the 2013 level that is asked for. Yes 
sir, we fully funded them.
    However, of course, the sequestration will automatically 
kick in, but there will be a cut, 7.8 percent, to the 2013 
level, rather than 7.8 percent to the 2012 level, which will 
mitigate, as we were discussing, some of the impact.
    Mr. Farr. And Mr. Young said that you were able to give him 
some discretion as to how they make those projects whole, cut 
those projects.
    Mr. Culberson. Yes. We understand there is about $4 billion 
of general transfer authority that Chairman Young provides in 
his bill that the--yes, the DOD bill, Chairman Young has 
produced will give the branches, the services general transfer 
authority of $4 billion, and we provide in our bill for 
military construction special transfer authority of $3.5 
billion for the OCO accounts. So we have given them as much 
flexibility as we can in this tough environment to make sure 
that you can continue to do what you do and mitigate the blow 
as much as possible.
    Mr. Farr. If I can, I would like to submit for the record 
the unique programs that we provide in the district to 
implement the national security strategy.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Culberson. Without objection, of course.
    And I know that the branches of the military always enjoy 
getting a chance to go to the California coast for some of that 
important training, beautiful part of the country.
    All right, sir. Let me move, if I could, on to my colleague 
from Texas, Judge Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. I really appreciate 
it.
    I am blessed to represent Fort Hood. We call it the great 
place, and I am going to be directing a lot of my questions to 
the Army because I live within the Army every day. I appreciate 
all of you, and thank you for your service to our country you 
have more than adequately shown for us over the last 10 years 
and we are very, very proud of all of you.
    General Odierno, I know you are working on this Army 
programmatic environmental assessment. Preliminarily, I 
received information that under alternative one, we will be 
reducing about eight BCTs across the Army.
    When you made that assessment, was that based upon the C.R. 
and the sequester, or was it just based on the C.R., or was it 
based on a appropriations bill as we are hoping we will be able 
to pass?

                       FORCE STRUCTURE REDUCTIONS

    General Odierno. Congressman, that was based on the numbers 
based on the Budget Control Act of last year. And the reduction 
of eight BCTs was based on first course of action, so it was 
two battalion brigade combat teams. So, if we make the 
decisions to go to three battalions it would be more brigades, 
but it would be more of battalions that remain in the force in 
order to fill those.
    Mr. Carter. Alternative two, would be to insert a battalion 
in each of the remaining----
    General Odierno. That is right.
    Mr. Carter [continuing]. Brigades.
    General Odierno. That is right.
    Mr. Carter. You are still working on the assessment, but 
what number will you be working, we are hopeful that, of 
course, the House, and I think our colleagues all seem to be 
pretty united thus far that in the House we will get this thing 
done and have an appropriations bill for the defense 
appropriations bill and for MILCON and C.R. for the rest of the 
government. We still have to get through the Senate, we don't 
know what their feelings are yet for sure, but we are hopeful.
    Does this analysis change any if we get an appropriation--
--
    General Odierno. It doesn't, because the, what the C.R., 
what the appropriation does for us is increase readiness, it 
doesn't impact force structure. The force structure is based on 
our base budget numbers, and our ability to balance readiness, 
modernization, and force structure and strength. So it will not 
adjust that.
    So the initial assessment was based on the $487 billion 
reduction in the Budget Control Act. With sequestration signed 
into law, and if that continues, that will cause us to take 
probably a double amount of the BCTs, or another five to six or 
seven more BCTs out of the force structure.
    So that is why, what we are trying to do is, that is why we 
gave ourselves an alternative, a course of action one, a course 
of action two. Although we might take out more brigade 
headquarters in a course of action two, it might allow us to 
keep more battalions, which is important to us.
    So that is the difference between the two courses of action 
that we are working, and once we get the results back from the 
PEA, which I think finishes 21st of March, we will then begin 
to assess how we move forward. I think we will do some 
listening sessions out at each one of the installations so we 
get to hear the concerns, and then we will move forward with 
our decision making process after that.
    Mr. Carter. The flexibility that we are hoping to get you 
under this bill, one of the things that I have heard from you 
personally, and others, and it is so very important, and I 
think everybody on this committee absolutely understands this, 
you don't put any of your people in harm's way without 
training.
    Will you have enough flexibility to maintain training 
schedules, because I am very concerned about that comment you 
made about going to the national training center, and the fact 
that you would be at a shortfall on that?

                      BUDGET IMPACTS TO READINESS

    General Odierno. It will allow us to mitigate portions of 
it, it will not allow us to mitigate all. But again, we have a 
$6 billion shortfall in O&M, it almost corrects that completely 
based on the C.R.
    So you correct that problem. I have another $12 billion 
problem because of sequestration and because of our OCO 
shortfall. So we will be able to correct some of it, but not 
all of it.
    Mr. Carter. Well this nation should never send any of your 
people in harm's way without training and that has got to be 
our first priority.
    General Odierno. And I will----
    Mr. Carter. Whatever it takes, we need to do it.
    General Odierno. And I will say, Congressman, that $6 
billion will definitely help us in ensuring we don't do that.
    Mr. Carter. Thank you for what you do.
    Mr. Culberson. Thank you, Judge Carter.
    I want to turn to my friend from North Carolina, Mr. Price.
    Mr. Price. Thank you, Mr. Chairman. And thanks to all of 
you for being here today, and for the work you do.
    General Odierno, I will address this first to you, but 
invite others to contribute as they wish. Before the C.R., 
before the sequester there was the Budget Control Act, and 
there was the strategic review. And of course, all of you are 
already contemplating how to bring our military construction 
needs into line with the personnel reductions envisioned in the 
strategic review.
    I have particularly been aware of this, because many in my 
congressional district have expressed concerns about the 
scenarios that are projected in the Programmatic Environmental 
Assessment published earlier this year of the impact on the 
communities adjacent to Fort Bragg. And again, that was before 
sequestration.
    I heard a panel of economists yesterday respond to the 
question, ``what is the perspective of history likely to be on 
what we are going through right now, 20, 30 years from now?'' 
And they said, the question likely would be one of great 
puzzlement. How could a great country do such damage to itself 
through artificially created crises and ideological rigidity.
    Economists of all stripes will tell us this process we are 
engaged in right now will damage this recovery. There is no 
question about that; hundreds of thousands of jobs will be 
lost, or not restored. As much as a percentage point will be 
shaved off of economic growth. There is a radically uncertain 
climate for business investment. So that is the macroeconomic 
impact.
    And then there is the impact on specific functions of 
government, from cancer research, to building highways, we have 
basically stopped that, by the way, to border control, to many 
of the specific functions that you are discussing here today. 
Huge damage at the overall economic level, and at the level of 
specific critical governmental functions, defense and non-
defense.
    Now, the continuing resolution does include some well 
considered defense and military construction appropriations 
bills as worked out on this committee. And why can't it include 
more? We have a Homeland Security bill ready to go with the 
same, having undergone the same process and the same is true of 
many bills.
    The defense and military construction pieces do anticipate 
and mitigate some sequestration effects, but by no means all. 
The sequester will still fall on this bill. All of you have 
reaffirmed that, and there is a clause in the continuing 
resolution that makes that abundantly clear. And it is also 
clear, by the way, that the C.R. does not cancel or totally 
mitigate the across-the-board character of the sequester, that 
is what a sequester is by definition, and the sequester will 
fall.
    So, in light of that, my question is pretty basic: At what 
point is it going to be simply unsustainable to maintain the 
force levels that we need when the various programs and 
personnel who sustain and support our active duty personnel are 
subject to the indiscriminate acts of sequestration?
    Now, I think we all agree that men and women in uniform, 
men and women in harm's way, shouldn't be subject to the whims 
of congressional malfunction. So the active duty troops 
properly were excluded from the sequester from the beginning.
    But that is not true of the support personnel. That is not 
true of the civilian personnel. That is not true of a lot of 
support functions.
    So I am asking you to reflect on what the breaking point 
looks like when it comes to cutting all the various other 
programs upon which our troops rely.

                  BUDGET REDUCTION IMPACTS TO THE ARMY

    General Odierno. Congressman, first, as we look at this, 
and I mentioned it earlier, as I look at this, we have to stay 
in balance between end-strength, modernization and readiness. 
And if we don't do that, we become a hollow force because we 
have too much end-strength, and we can't give them the right 
equipment, we can't train them properly.
    And, frankly, that is going to happen pretty quickly.
    Now, for the, for eliminating active duty soldiers, that is 
really just for 2013. And so, when we go beyond 2013, we can 
then start to submit budgets that would continue to balance 
between end-strength, readiness and modernization.
    And in the Army, that means we are going to have to cut 
people, because 48 percent of our budget is people.
    So, as I have testified, right now we think it is somewhere 
between, if you include the Budget Control Act cuts with 
sequestration, it will be somewhere between 185,000 to 200,000 
military personnel, a large majority of those being active 
component, but some National Guard-Reserve. It will include 
another significant amount of civilians as well.
    So in just the Army alone, I would tell you it is about 
230,000 to 250,000 jobs that will be affected by the Budget 
Control Act and sequestration, as you move forward.
    If we don't do that, we will be out of balance. And we 
can't be out of balance, because, as we have talked about here, 
we cannot send soldiers into harm's way without the right 
equipment and the proper training. We simply can't do it.
    And so, we have got to make sure we have got that right 
balance.
    So, to me, I don't know what the number is yet. We are 
working our way through that. We are doing some analysis on 
when do I say it is just too low to meet our nation's needs. We 
have not come to any conclusions on that. And we will do that 
as we get further in to our development of how we will execute 
sequestration plus the Budget Control Act over the next 10 
years--9 years.
    Mr. Price. Thank you.

                  STRESSES OF CIVILIAN WORKFORCE CUTS

    General Amos, you referred very persuasively I thought in 
your statement to the stresses of these civilian workforce 
cuts. Do you have anything in particular to add?
    General Amos. I do. But if you will allow me just a minute 
to put my Joint Chiefs' hat on for just a second because you 
alluded in your earlier comments to General Odierno about the 
United States and when is it going to be a bend in the knee of 
the curve or knee in the curve with regards to when you can't 
do it.
    Congressman, we have, I think we are--the larger question 
for me, and I think for all of us that sit on the Joint Chiefs, 
is what is it our nation expects to be able to do in the world 
over the next decade to 2 decades? What is our global 
responsibility?
    I realize that is not a state, it is not Texas, North 
Carolina, Carmel. I understand that. And I could never get 
elected, because nobody would ever vote for me.
    But the fact is, is that we that wear the JCS hat, and, 
quite frankly, we are worried about that. We are worried about 
our responsibility as, quite honestly, the world's sole global 
power. That is it. There are rising powers, but we are it.
    So I look at this in sequestration and I look at the 
impacts on the Department of Defense and all of our services 
and, quite honestly, I get very worried about it. I worry about 
what does that equate to with regards to presence, engagement, 
partnership.
    We have got five major treaties in the Pacific. We have had 
them for over 50 years. They depend on us. So when we start 
retrenching, we start coming back to America and are the 
assurance of allies we will be--they are going to look at us 
the same way they are looking at these hearings, and going 
"Hmm, I wonder if they are going to be there for us."
    So I just throw that out.
    Sir, we have got almost 20,000 regular civilian Marines and 
another almost 8,000 what we call non-appropriated funds, where 
we actually raise those funds through other facilities or other 
means.
    The bulk of those are going to be furloughed. Sixty-eight 
percent of our civilian Marines, are veterans. Sixteen percent 
are wounded veterans that are classified as having gotten out 
of the service as a result of their wounds.
    I mean, that is significant.
    By the way, the bulk of them don't work in Washington, D.C. 
Almost all of them are outside of Washington. They are out at 
our bases and stations. They are our health care workers.
    I have got some, this is fairly staggering. I asked last 
night my staff to tell me, go into the health care and 
behavioral health and family readiness and our sexual assault 
prevention, highly qualified experts and folks that we have 
asked to come in and join our efforts.
    And here is the cut. It is going to furlough about 500, a 
little over 500 of these folks; 25,000 behavioral health 
counseling hours will be eradicated; 15,000 what we call 
transition readiness, which is our transition for our veteran--
our Marines into society, that will go away; 5,600 hours of 
Marine Corps family team building will go away; 114,000 child 
care hours are going to go away; and 1,500 sexual assault 
victim advocate hours are going to be reduced.
    In my previous testimony, I have said this is not about 
things, it is about people. And people count. We are a people-
intense organization in all our services and in particular 
mine.
    Mr. Price. Thank you.
    I don't know how much time I have. I would welcome any kind 
of response from others of you.

                           STRATEGIC BALANCE

    Admiral Greenert. If I could reiterate a little bit what 
General Odierno said, which is, one, we have got to look into 
the future and give you a strategic answer. We have got to get 
in balance for where we are today, or it is just too difficult 
to look into the future.
    So, number one, as the committee has said, a bill, 
appropriations bill, very important. That will help us get in 
balance. But we still have sequestration, which is equal 
opportunity reduction across all the appropriations. My point 
would be we still will need some reprogramming.
    And the wisdom of Chairman Young earlier applies to the 
transfer authority to come in later in the year, we say, "Okay, 
great. We have got a bill; now we get balance, now what about 
sequestration and where does that put us, and how do we patch 
up the programs, you know, that lost the 9 percent here or 
there that are really important, and what do we do with the 
remaining? And do we want to now, again, come in and ask the 
Congress for the ability to reprogram?"
    Once we can get that foundation, we can then look into the 
future, with the other caps, and determine what that really 
means.
    Thank you.
    Mr. Price. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Price.
    I recognize my friend from Florida, Mr. Diaz-Balart.
    Mr. Diaz-Balart. Mr. Chairman, thank you very much.
    Gentlemen, thank you all for the service you provide to our 
nation.
    And let me also, Mr. Chairman, thank you for mentioning 
Bill Young. Bill Young, as you said, is a national treasure. 
But for us in Florida, well, he is just a very special icon. So 
thank you for mentioning him as well.
    Gentlemen, a few issues, let me just kind of throw them out 
there, and so you all can kind of respond to them.
    SOUTHCOM, it was mentioned briefly. We all know the issues 
in Latin America, whether it is the, you know, incivility and 
some not-so-friendly players, like Huge Chavez in Venezuela, 
even though nature may have taken care of that one soon, Evo 
Morales in Bolivia, Rafael Correa in Ecuador, Daniel Ortega in 
Nicaragua, et cetera.
    While at the same time Iran, China and Russia are making, 
frankly, very concerted efforts to gain influence and power in 
the region, including sales of advanced weapons.

        SEQUESTRATION AND THE ABILITY TO DEAL WITH LATIN AMERICA

    So I have, obviously, serious concerns about what 
sequestration would mean for our operations and our ability to 
deal with the issues in Latin America, but as well as drug 
interdiction. And I understand that sequestration could have a, 
frankly, a devastating impact on the interdiction of drugs.

                        GUATEMALA AID SUSPENDED

    If you would comment briefly on the, I would, it would be 
helpful. Number two is Guatemala. You know, in the 1980s under 
Jimmy Carter, President Jimmy Carter, military aid to Guatemala 
was suspended because of concerns of human rights. In 2005, the 
aid began to flow through the Foreign Military Sales, for 
example, to Guatemala.
    And in 2008, Congress started allowing International 
Military Education Training, IMET, funds, but only to certain 
components of the armed forces. Now, currently, you know, our 
government works very closely, hand-in-hand, with the 
Guatemalan counterparts on drug interdiction and on security 
operations.
    Members of the Guatemalan military participate in U.N. 
sanctioned peacekeeping operations in Haiti, in Lebanon, in the 
Democratic Republic of Congo, in South Sudan. So, clearly, the 
Guatemalans meet at least U.N. threshold for those guidelines. 
So I am not quite sure why they are still not receiving that 
aid.
    And are you all going to be trying to get State and 
Congress to rethink that policy, which I think is, frankly 
makes no sense whatsoever.
    And, lastly, we have heard, and we are all concerned about 
the budgetary impacts that sequestration and the C.R. is having 
on you, and they are devastating.
    I was, frankly, shocked to hear in some press reports late 
last year about I believe the Navy is spending $200 billion in 
biofuels. According to press reports, at the rate of $26 a 
gallon. Two questions on that. Is that, which I think is just, 
frankly, you know, amazing.
    And I know that the secretary of the Navy mentioned that he 
wanted to create a market, a world market for biofuels. So it 
was not because, for our national security interests. It was to 
create a world market in biofuels.
    And I believe the secretary said he was going to spend $1 
billion on biofuels in the next year. Is that off the table? 
You know, at a time when we are, again according to press 
reports and we know it is true, when the Navy is not able to 
send a carrier task force out, are we still going to be now at 
this time of sequestration and C.R.s and tight budgets, are we 
still looking at spending, you know, close to whatever--$26 a 
gallon or hopefully less, but what are doing there? Three 
questions, three issues, and thank you very much, gentlemen.
    Thank you, Mr. Chairman.

                                BIOFUELS

    Admiral Greenert. If I may, I will answer the question on 
biofuels. The Navy's budget, total budget for alternate fuel, 
and that includes biofuel as well as others, is $17 million; 
$11 million of that is testing different mixtures of fuel, in 
addition to pursuing the testing and evaluation of other 
alternative energy sources. The other $6 million is for 
research.
    The money frequently quoted with the larger sums are 
outside the Navy. They are DOD sources which you apply for. It 
is called a DPA fund, and I will have to get you the specifics 
of that act and what it stands for. And over a 2-year period, a 
2- or 3-year period, when you add all that up, if the Navy were 
to get that funding, effectively held in escrow, and apply for 
it, then it could total the number of about----
    Mr. Diaz-Balart. So Admiral, that is, and right now, that 
is, I would assume, that in the list of priorities of the very 
tough choices that you are having to make, I am assuming, and 
that is just when you get a chance, I would like some 
information. Is that something that is really low on the 
priority list? Or is that still something that is--because I 
know it was a very high priority for the secretary. So I just 
want to make sure that, if you could, you don't need to now, 
but just let us know where that is on the priority list.
    Admiral Greenert. I will provide that for you.

    The Navy has been pursuing energy efficiencies since the 1980s. Our 
energy efficiency program focuses on three areas: (1) operational 
energy efficiency; (2) shore energy efficiency; and (3) research and 
development. We will make energy efficiencies a priority to the extent 
that it improves endurance of our forces, mitigates vulnerable 
logistics tails, lowers total ownership costs, and enhances the 
resilience of our shore facilities. We are seeing results, for example, 
since 2003 the Navy has reduced energy use ashore by more than 17%. 
Investing in expanded sources of supply in energy reduces risk for 
future warfighting capability. The $11 million invested in FY13 in 
alternative energy sources R&D is modest, which can help mitigate the 
impacts of a volatile fuel market as price and supply fluctuations in 
the petroleum market. For example, a $1 change in price per barrel of 
oil can cost the Navy $30 million.
    The Navy provided a one-time $64M investment in PB13 towards the 
OSD Defense Production Act Title III Program's (DPA) Alternative Fuel 
Programs. The Alternative Fuels DPA program leverages other federal 
agencies and industry commitments to expand discovery and delivery of 
alternative fuels. This program models itself after other successful 
efforts that supported industrial production capacity for critical 
defense needs. The Navy seeks greater energy security though demand 
reduction initiatives, supply expansion initiatives, and by building a 
culture of energy awareness and efficiency.

    Mr. Diaz-Balart. Great.
    And then the issue of Guatemala, are we going to--is that 
something that you all disagree with my assessments that 
Guatemala should be now receiving, because they are receiving 
funding, but just not their army. I think they are, you know, 
there are other parts of it. Is that something--is my 
assessment wrong? Is that something that you all are looking 
at?
    And thirdly, remember the other issue about drug 
interdiction mission with--how sequestration will impact that.

                   FOREIGN MILITARY AID RESTRICTIONS

    General Odierno. Well, I would just say, Congressman, that 
decisions like that are based obviously on our policy decision, 
but also some legislation. There are amendments out there that 
limit our ability to provide aid in certain situations. I think 
that is why we are unable to do that. So until, you know, 
either they can be in compliance with the legislation that has 
been developed, as well as determined by the State Department 
that they are meeting all those requirements, we are not 
authorized or allowed to spend money.

                               GUATEMALA

    I am not completely familiar with Guatemala, but I do know 
it stands in that category right now and that is why we are 
unable to spend money.
    Mr. Diaz-Balart. Any comment on the drug interdiction 
efforts? And my understanding is that it would be a rather 
dramatic reduction of our ability to interdict narcotics.
    Admiral Greenert. In the maritime sense, sequestration will 
affect it. And the deal is our force structure is going down, 
and particularly the ships that we employ down there. But there 
is also a shift going on, Congressman. We are going from our 
frigates--using our frigates and some destroyers, to littoral 
combat ships, which are a new class of ship--very fast, a lot 
of volume, and have already proven their value down in the 
Southern Command.
    Also, called--a vessel called a ``joint high-speed 
vessel.'' It is a catamaran, very high-speed. It, too, we will 
deploy it soon to the Southern Command and it is custom-made, 
among other things that it does, for counter-drug, and has 
proven itself in exercises.
    So we are evolving in this regard. We have got to get more 
innovative. And as our strategy says, our footprint will be, by 
direction really, fiscal direction, smaller.
    But I commit to you, we value the importance of the 
mission. We will do whatever we can. It is a balance in our 
global force management allocation plan, but we have other 
things up our sleeve that we can do to bring for that.
    Mr. Diaz-Balart. With the C.R., would that, in other words, 
how affected would that effort be due to sequestration? And 
would this, would the, you know, C.R.--I guess, the C.R.-plus, 
how would that change the scenario?
    Admiral Greenert. If we can get a spending bill once again, 
now, that is a horse of a different color, especially for this 
year. Now, we have these operating funds for this year that we 
can go back and revisit and do the balance and try to get back 
those operations, including Operation Continuing Promise down 
there, where we would--we--these are things that aren't 
interdicting drugs, but they are very important because they 
help preclude people from being interested in becoming drug 
runners.
    Mr. Diaz-Balart. Okay.
    Thank you, Mr. Chairman.
    Mr. Culberson. Thanks very much.
    I recognize Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.
    And General Welsh, in your testimony you talked about some 
of the effects of these cuts in terms of weapons sustainment 
systems in Florida, Arkansas, a number of other locations. 
There seems to be an argument that these cuts are not going to 
weaken our military readiness. This is basically being made by 
people who are not wearing the uniform.
    Since you are sitting here, and you have got this testimony 
that says that there are going to be real challenges with the 
cuts, I think that it would be helpful for the committee to 
understand what you mean when you say that there will be these 
delays, how will they really impact the force.
    General Welsh. Thank you, Congressman.
    Let me give you just an example. The Commandant talked a 
little bit ago about depots and equipment not getting into 
depots, and what that does to us. There is impact across the 
force, from readiness to people--to organizations and 
businesses that support the military. And I will just use an 
aircraft depot as an example.
    Under the current sequestration law, without any new 
Defense appropriations bill, without any mitigation, we will 
not put 150 Air Force aircraft into the depot this year, and 
about 85 engines won't go into depot. That is about $500 
million worth of depot work that will not occur. Now, that 
depot workforce will also be undergoing the furlough activity 
for 22 days apiece over the rest of the year.
    Along with that, we will stop about half-a-billion dollars 
in contract logistics support for that because the depot work 
is not occurring. That goes to small businesses that support 
the depot with spare parts, specialized expertise, tooling and 
people. Recreating those small businesses that will be 
dramatically impacted by this takes years.

                 SET OF CUTS IN THE BUDGET CONTROL ACT

    Mr. Fattah. Let me ask you a question. So, there was a set 
of cuts, almost about $500 billion in the Budget Control Act 
that DOD has to deal with over the next 10 years. How are those 
cuts different from these automatic cuts?
    General Welsh. From our perspective, what has happened is a 
series of cascading effects have now put us at a place where we 
are walking a knife's edge between being able to maintain 
readiness or not. It was the cuts at the end of the Gates 
administration. Remember, they were, on how we calculated 
somewhere between $87 billion and $200 billion. There was the 
Budget Control Act, which took effect back in 2011, really hit 
our budget in 2013.
    And the Air Force, for example, has been trading readiness 
for modernization for the last 10 years because we need to 
modernize our force. We critically need to do it. Our readiness 
rates have been coming down for 10 years consecutively because 
we have been moving money into modernization accounts, focusing 
on the activity in the Middle East, not doing full-spectrum 
training across our force, so we could begin modernization.
    When the Budget Control Act hit our budget in 2013, it 
exposed the margin that we were operating on--a fine margin 
between manageable risk and readiness and now an inability to 
maintain it. Sequestration exposed that completely. And so now 
we have had to think about taking money out of readiness--or 
excuse me, out of modernization and putting it back into 
readiness. That is why we canceled the Global Hawk Block 30 a 
year ago. That is why we recommended canceling the C-27 
program, not because we don't want them, but because we can't 
afford everything.
    Sequestration now magnifies the problem. Everything is 
affected. And it happens abruptly and arbitrarily. The biggest 
frustration for the people at this table is all the commentary 
we read and hear about, hey, we are making this stuff up. We 
are not. Nobody is emotional about this. It is pretty matter of 
fact.
    The big issue over time for us, I believe, is what is our 
topline going to be for the next 10 years with sequestration. 
And until we know that, we can't even help define the specific 
impact on acquisition programs, modernization programs, 
infrastructure, numbers of people, force structure. We don't 
know yet.

                     BATTERY ISSUE WITH DREAMLINER

    Mr. Fattah. And one fairly pointed question, the battery 
issue with the Dreamliner. Some of your fighter planes use 
similar types of batteries. You have looked through this issue 
and are you comfortable?
    General Welsh. Yes, sir. We don't have anything that I 
would consider a similar problem. I don't know where Boeing 
stands on their--I know they are comfortable with----
    Mr. Fattah. They are moving along pretty well.
    General Welsh. But we are very comfortable. We do not have 
that same problem.
    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, sir.
    Mr. Fortenberry from Nebraska.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    And first of all, let me say how much I appreciate being a 
part of this new committee, being new, and I look forward to 
serving under your leadership.
    And thank you all, gentlemen, for coming today and for your 
very informed and thoughtful and heartfelt testimony.
    As I recall, Admiral Mullen several years ago was asked: 
What is the greatest threat to America? And he said: ``Our 
debt.'' And so we are, as you are, caught trying to work 
through very difficult principles here. One is stopping the 
over-spending and getting our fiscal house in order so that we 
can help save this economy, turn it around, and also prevent 
national security problems that are resulting from this high 
level of debt and deficit, while also at the same time, 
delivering smart and effective, prudential, reasonable 
government services, the core essence of which is defending our 
country.
    So all of you obviously are struggling, I think, with most 
good-willed members of Congress, as to how to best achieve this 
balance. And I agree with you, the sequester is a clumsy 
mechanism. It disproportionately affects the military and there 
should be more prudential ways to find appropriate reductions.
    Yet at the same time, we are where we are. And it, of 
course, is becoming a leverage point for the broader necessary 
discussion that has to take place in Congress as to how we move 
forward on proper fiscal order.
    With that said, let me move specifically to a question for 
you, General Welsh.
    I represent Bellevue, Nebraska, which is where STRATCOM is 
located. STRATCOM came under an assault in December of 2010. It 
wasn't by the Russians. It wasn't by the Chinese. It wasn't by 
terrorists. It was by a broken water main, which flooded the 
basement of a nearly 60-year-old facility, which was designed 
when the telephone was the main way in which we communicate. 
And this was the central place where we basically take care of 
our nuclear infrastructure and planning. So an important 
process has been under way for a number of years to provide a 
new facility. We broke down on it recently.
    I want to go back to a couple of comments that you made. 
Two being--one being to Chairman Young, as to how 
sequestration, in and of itself, would potentially or fully 
stop construction of a new STRATCOM headquarters, plus the 
furlough question. If we passed a continuing resolution with 
the Department of Defense Military Affairs appropriations bill 
attached, from what I hear you saying is, those projects 
proceed normally and a significant number of the furloughs 
could be prevented. Is that correct?
    General Welsh. Yes, Congressman, that is exactly what I 
said.
    Mr. Fortenberry. Why don't I just stop there, Mr. Chairman, 
in the interest of time?
    Thank you, sir.
    Mr. Culberson. Thank you very much. Right on target.
    And then, Mr. Nunnelee, Mississippi.
    Mr. Nunnelee. Thank you, Mr. Chairman.
    Yesterday I had in my office a young Marine, and when he 
got finished telling me his story, he just grabbed my heart. He 
said, ``I saw an IED blow up, the colleagues on my right and 
left were blown to bits.'' And he said, ``I am home now, and I 
am begging for help.'' And he said, ``There are numbers all 
over my base. I called the number. Maybe somebody answers the 
phone. If somebody answers, I don't get a call-back.'' He said 
the intake workers ``are very, very good. Once I sit down with 
them and they talk about the issues I am dealing with.''
    But it appears that whatever paperwork they complete on the 
intake gets put in a file, and nobody ever follows up. And he 
said, ``There are many of us that are begging for help, and we 
are not getting it.'' And I don't question, in any way, your 
commitment to the men and women under your command. I know you 
want for them the best. But I do question all the demands that 
are on your time, and if this is something that gets lost in 
the bureaucracy.

                       YOUNG MARINES NEEDING HELP

    So, since it was a Marine, General Amos, I will ask you 
first, but also the other servicemembers. What are we going to 
do to help these people?
    General Amos. Congressman, first of all, thanks, from the 
great state of Mississippi for your concern about our Marines. 
And I, obviously, I can't, I can't specifically dive into, 
although I would be happy to, and get you some specifics on the 
young Marine that came and spoke to you.
    Since we crossed the border in 2003, in March of 2003, we 
have had 13,362 Marines wounded. Twenty-five percent of those 
Marines are what we would call seriously wounded. The other 75 
percent are Marines that were patched up. Sometimes it is 
something as a grazing shot, it is something if a shrapnel is 
pulled out of a piece of flesh. But 75 percent return back 
within, probably, the first 2 to 3 weeks, back to their unit. 
They are patched up, and their life moves on.
    That other 25 percent, there is a percentage of them that 
struggle with this matter of PTSD--it is real. There is 
nothing--there is not a single service here that--we are well 
past the point of being in denial on that. That was many years 
ago. We believe in it. We have put untold amount of effort to 
try to have the counselors, try to have the right people, have 
the programs. But it is more than programs. It has got to be a 
compassionate individual that sits down with a wounded sailor, 
soldier, Marine, and actually takes their story and talks to 
them.
    That is what we try to do, and of that 25 percent of those 
13,000 plus, I think we are pretty successful, that almost a 
clear majority of the time. Every day I will get an e-mail from 
somebody. It will come often from a family member or somebody 
of a Marine that was released from active duty 2 or 3 years 
ago. So this is out there. And we will find out that this 
Marine is struggling. This Marine is homeless. This Marine is 
without a job. This Marine is suffering from PT--this Marine 
has attempted suicide.
    And, Congressman, I have come to understand, having touched 
this now for 6 to 7 years personally, you have got to--they 
come to you one at a time. You have got to deal with them one 
at a time. You can't deal with them in a, kind of, a group 
think thing. Each one of these young men or women are 
individuals. And we try. We try to get them while they are on 
active duty. We try to take care of them once they go out the 
other side and enter civilian life.
    So, sir, I would be happy to give you the specifics of that 
young man, but I have got to tell you, there is no more 
compassionate organization right now to care for our young men 
and women that are wounded than my service.

                           CARE FOR VETERANS

    General Odierno. Congressman, if I could jump in on this, 
this is, obviously, a very important issue. And it goes along 
several different lines. Let me just try to quickly summarize 
those.
    So one is, as we talk about both traumatic brain injury and 
Post Traumatic Stress, this is something about the continuum of 
care that we have to develop. And it starts, first with the 
individual coming forward, when he does come forward, as you 
just addressed in this one case, that the appropriate 
capability is there to assist him.
    And for the Army, it is in a variety of places because of 
our National Guard, our U.S. Army Reserve, as well as our 
active duty soldiers. They are all over the United States. So 
how do we develop a network of continuum care to make sure they 
can reach out and be treated?
    And then the third is our ability to then hand them off to 
V.A. And how do we do that in such a way where everybody 
understands their problems, the medical records are handed 
over, the counseling sessions are handed over, so it is a 
constant continuum of care? This is what we owe our soldiers, 
sailors, airmen and Marines, is this continuum of care, and 
that they don't get lost in the system, that we are going to 
continue to fund this, because, to go on for 10, 15, 20 more 
years, as we all know to make sure that we continue to have the 
programs in place.

                       RECRUITING MORE COUNSELORS

    In the Army, one of the issues we have had is, we have the 
authorization, and we have allocated the dollars, no matter how 
constrained our budget is, is to hire the counselors. But, 
frankly, there aren't enough counselors out there. There is 
incredible competition between us and the local communities for 
these counselors. So we are continuing to work on our 
recruiting efforts to bring them in so we have plenty of 
counselors to deal with, not only the soldiers, sailors, air, 
Marines, but their families, as well, who are affected by this.
    So we absolutely are, we take this on as one of our most 
important functions. And not a day goes by, as the commandant 
said, that we are not aware of an individual case that might 
not be going the way we want it to.
    I will tell you, there are hundreds and hundreds of cases 
that are going very well, but if one does not do well, that is 
on us, and we have got to continue to work that together. So 
this is a complex issue that is going to take a lot of time and 
effort across a wide variety of areas. So am with you on this, 
and we will do all we can to continue to work this and we will 
work with you all as we come up with more issues----
    General Amos [continuing]. Not only do the services have 
all their issues of programs and how they are trying to care 
for, and how they are all basically the same, I mean there is, 
we best practices from each of the services. It is not 
institutional prerogative. We have stolen best thoughts and 
ideas from all our sister services to try to come up with the 
best product and the best venue. The V.A. is doing exactly the 
same thing. If General Shinseki was here, he would talk with a 
great passion about----

                        HOMEGROWN ORGANIZATIONS

    One of the things that has happened as a result of almost 
12, 13 straights years of combat, is there are different 
organizations; some of them are church-centered, but a lot of 
them have grown up, they have become homegrown organizations 
that have now great institutional impact, civilian-wise, that 
touch the Army, the Air Force, the Navy, the Marine Corps 
outside, and provide those extra bits of care, the money, the 
capability, the capacity to be able to care for these young men 
and women beyond what V.A. and beyond what the Department of 
Defense can.
    And there is goodness to that, and without getting into 
some specific names of some of these organizations, because 
that would probably be inappropriate, but there are some 
wonderful organizations and institutions that care for them 
beyond what we could ever care for what the V.A.----

                       POST-DEPLOYMENT ASSESSMENT

    Admiral Greenert. Something I would add to my two 
colleagues on my right and left, I have worked passionately--
there is an element of stigma that when the kids come back it 
is okay to not be okay, and driving that home is sometimes 
difficult. So we will do a post-deployment assessment, and they 
don't want to, for fear of leaving the unit, they will say, no 
I am all right.
    We have to have the discipline, and there is a process to 
follow up on everybody. So that is the part where somebody 
says, ``Well, Billy said he was okay,'' you know, whatever. We 
have to follow up on that. And as Jim and Ray both said, that 
is incredibly important, and--process----
    Mr. Nunnelee. Well, again, I do not question your 
individual commitment to those young men and women. The only 
reason I raise the issue is to request that you make sure your 
organizations carry the commitment that you just expressed 
here. Make sure that every returning young man and woman gets 
the mental health care that they have every reason to expect.
    Thanks----
    Mr. Culberson. Thank you very much.
    Our witnesses are coming up against a hard stop. I know 
several of y'all have to leave. So I would ask the committee 
members, if we could, any additional questions, we will 
certainly submit in writing, but I, you know, have a brief 
closing statement, but I would like to recognize my friend Mr. 
Bishop for any closing remarks or questions he would like to 
ask, and then we are going to need to conclude.
    Mr. Bishop. First of all, let me just thank you for your 
service, thank you for your hard work in dealing with the 
challenges that we face. I do have some additional questions 
for all of your gentlemen, but we will submit them for the 
record. I understand that at this time there is great demand 
for your time, because of the knowledge that you have and the 
challenges that we are facing, there are others who want to 
explore that.
    So I thank you for coming. I thank you for the information. 
And I thank you for your service. And we will submit some 
additional questions for the record.
    Thank you.
    Mr. Culberson. Thank you, Mr. Bishop.
    I just want to reiterate how united the Congress is in 
supporting you and helping you in every we that we can. We 
recognize the--that this is a very dangerous world out there, 
just very briefly looking at the headlines this morning, the 
supreme commander of North Korea said that they are--intend to 
cancel the 1953 cease fire, and that is an extraordinarily 
dangerous situation in North Korea.
    In the communist Chinese, they have announced that they are 
going to raise their annual military spending by almost 11 
percent a year. The Chinese gold reserves, in fact, Chairman 
Young and committee members Chinese foreign sea reserves have 
surged 700 percent since 2004, and they have got enough money 
right now on hand to buy every central bank in the world's 
official gold supply twice.
    And I also saw this morning that there is a Chinese, a 
communist Chinese military delegation visiting the Pentagon, 
Hawaii, and the District of Columbia and the Pentagon, and this 
includes a general who said they were prepared to do a first 
strike nuclear attack against the United States. I mean, that 
is of real concern. I hope we are limiting what those folks 
have access to.
    We face a very dangerous world. The committee is committed 
as is the Congress to support you and help you in every way 
that we can to make sure the United States military is the very 
best in the world, and again, that you never have to look over 
your shoulder or worry about the equipment, the supplies, the 
support, the facilities and the health care that our men and 
women in uniform receive.
    We will continue to make sure that it is the very best in 
the world. And we thank you very much for your service to the 
country. And we will submit any additional questions in 
writing.
    Thank you, very much.
    And the hearing is adjourned.
    [Questions for the Record follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
